Adam K. Mortara
Adam.Mortara@BartlitBeck.com

September 17, 2019

Courthouse Place
54 West Hubbard Street
Chicago, IL 60654
main: (312) 494-4400
direct: (312) 494-4469

Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street NE
Washington, D.C. 20543

BartlitBeck.com

Re: Regents of the University of Minnesota v. LSI Corporation, et al., No. 19-337
Dear Mr. Harris:
The petition for writ of certiorari in the above-captioned case was filed on September 12,
2019 and placed on the docket on the same day. I respectfully request, under Rule 30.4 of the
rules of this Court, a 30-day extension of time, to and including November 14, 2019, in which to
file Gilead Sciences, Inc.’s brief in opposition currently due on October 15, 2019.
A 30-day extension to and including November 14, 2019 will ensure sufficient time to
fully analyze and respond to the arguments raised in the petition for certiorari in this case.

Very truly yours,

Adam K. Mortara

cc:

Kevin K. Russell
Counsel for Petitioner

